No.

IN THE
SUPREME COURT OF THE UNITED STATES

Paul J. Begnoche, Sr

— PETITIONER

(Your Name)
VS.
SUPERINTENDENT SCI MERCER: PA ATTORNEY GENERAL’S
— RESPONDENT(S)
OFFICE: ATTORNEY OF NOTICE: RYAN H. LYSAGHT ‘
PROOF OF SERVICE

I

Paul J. Begnoche, Sr________________ , do swear or declare that on this date,
September
, 20-2JL, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Deputy District Attorney Ryan H. Lysaght, Dauphin County D.A’s Office;
Patricia S. Dodszuweit Clerk of Court, U.S. Court of Appeals for<3rd Circuit;
Peter J Welsh, Clerk of Court, U.S. Middle District Court of iJrd Circuit

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

September

,20H_

7

/(Signature/

